NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




          MATERIAL LOSS REVIEW
                     OF
        G.I.C. FEDERAL CREDIT UNION

              Report #OIG-13-13
              December 2, 2013




              James W. Hagen
              Inspector General


                 Released by:


              R. William Bruns
               Senior Auditor
                                                  TABLE OF CONTENTS

Section                                                                                                                           Page


ACRONYMS AND ABBREVIATIONS ....................................................................................... ii

EXECUTIVE SUMMARY .............................................................................................................1

BACKGROUND .............................................................................................................................3

OBJECTIVES, SCOPE AND METHODOLOGY ..........................................................................6

RESULTS IN DETAIL....................................................................................................................9

          A. Why G.I.C. Federal Credit Union Failed ........................................................................9

          B. NCUA’s Supervision of G.I.C. Federal Credit Union ..................................................11

OBSERVATIONS AND RECOMMENDATIONS ......................................................................16

          A. Observations..................................................................................................................16

          B. Recommendations .........................................................................................................17

APPENDIX A: NCUA Management Response ............................................................................20




                                                                                                                                           i
ACRONYMS AND ABBREVIATIONS

AEP             Annual Examination Scheduling Program
AIRES           Automated Integrated Regulatory Examination System
AMAC            Asset Management Assistance Center
Call Reports    NCUA 5300 Call Reports
CAMEL           [C]apital Adequacy, [A]sset Quality, [M]anagement, [E]arnings,
                and [L]iquidity/Asset-Liability Management.
CDs             Certificates of Deposit
CPA             Certified Public Accountant
Credit Union    G.I.C. Federal Credit Union
DOR             Document of Resolution
DSA             Division of Special Actions
DSA Director    Director, Division of Special Actions
EIC             Examiner in-Charge
FCU Act         Federal Credit Union Act
FOM             Field of Membership
FPR             Financial Performance Report
GAGAS           Generally Accepted Government Auditing Standards
G.I.C.          G.I.C. Federal Credit Union
ISIS            Integrated Station Information System
MLR             Material Loss Review
NCUA            National Credit Union Administration
NCUSIF          National Credit Union Share Insurance Fund
OIG             Office of Inspector General
PCA             Prompt Corrective Action
PCO             Problem Case Officer
RD              Regional Director (Region III)
RFE             Risk-Focused Examination
WCC             Work Classification Code




                                                                                 ii
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



EXECUTIVE SUMMARY

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Moss Adams LLP (Moss Adams) to conduct a Material Loss Review (MLR)
of G.I.C. Federal Credit Union (G.I.C. or the Credit Union), a federally insured credit union.
We reviewed G.I.C. to: (1) determine the cause(s) of the Credit Union’s failure and the
resulting estimated $7 million loss to the National Credit Union Share Insurance Fund
(NCUSIF); (2) assess NCUA’s supervision of the Credit Union; and (3) provide appropriate
suggestions and/or recommendations to prevent future losses.

To achieve these objectives, we analyzed NCUA examination and supervision reports, as
well as related correspondence. We interviewed NCUA officials and regional staff, and
reviewed NCUA guidance, including regional policies and procedures, NCUA 5300 Call
Reports (Call Reports) and Financial Performance Reports (FPRs).

We determined G.I.C. Federal Credit Union failed due to overstatement of $8.1 million in
assets, primarily investments in certificates of deposit (CDs) and cash, allegedly due to fraud.
According to the FPR filed just prior to the discovery of the alleged fraud, the Credit Union
reported total assets of approximately $15 million, and total liabilities of $13 million, which
Credit Union management reported were comprised entirely of member shares. Region III
Officials determined the Credit Union to be insolvent and on December 13, 2012, NCUA
liquidated G.I.C. FCU.

The following factors created an environment in which such overstatement could go
undetected.

    •   Questionable Management Integrity and Performance

        Senior management displayed a lack of integrity and did not manage the Credit Union
        in the best interest of its members. External auditors identified $5 million in
        discrepancies between the December 31, 2011 investment statement provided by the
        Assistant Manager, and the confirmations from the investment broker. NCUA
        examiners and Problem Case Officers (PCOs) later determined that credit union
        management had overstated G.I.C.’s assets by $8.1 million.

    •   Weak Supervisory Committee Oversight

        The supervisory committee failed to obtain supervisory committee audits for fiscal
        years (FY) 2009, 2010, and 2011, as required under Part 715 of the NCUA Rules and
        Regulations. At the time of liquidation, all three audits were past the required due
        date of 120 days following fiscal year end.




                                                                                               1
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



      •    Weak Board of Directors Oversight

           Although the supervisory committee is the entity charged with primary responsibility
           over the records of the Credit Union, the Board of Directors acts as control over the
           supervisory committee by providing a forum for receiving the audit report and
           minutes of the Committee meetings. We believe G.I.C.’s Board failed in these
           responsibilities as evidenced by the Board’s failure to keep complete and accurate
           minutes or to obtain Board packets with information sufficient to execute its duties.

We concluded that these factors created an environment in which assets could be vastly
overstated.

We also determined NCUA could have mitigated the loss to the NCUSIF had they been more
aggressive in requiring the completion of the supervisory committee audits, confirmed
account balances directly with institutions, 1 and addressed risks related to the failures of the
supervisory committee and Board of Directors.

As a result of our review, we made two observations and four recommendations to NCUA
management related to increasing compliance with audit report filing requirements and
enhancing examination procedures related to evidence of account balances. See Appendix A
for management’s response to our recommendations.

We appreciate the effort, assistance, and cooperation NCUA management and staff provided
to us during this review.




1
    Current examination procedures do not require this procedure.


                                                                                               2
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



BACKGROUND

The NCUA OIG contracted with Moss Adams to conduct an MLR for G.I.C. Federal Credit
Union, as required by Section 216 of the Federal Credit Union Act (FCU Act), 12 U.S.C.
1790d(j). G.I.C. was a federally chartered credit union located in Euclid, Ohio. NCUA’s
Region III provided supervision over the Credit Union.

History of G.I.C. Federal Credit Union

NCUA chartered G.I.C. Federal Credit Union in 1936. The field of membership (FOM)
consisted of employees of Gould, Inc.; various divisions of Gould, Inc.; employees of
Imperial Clevite, Inc; employees of Powder Metal Products Division of Imperial Clevite, Inc.
and Microbe Carbide Die Company. Also included in the FOM were spouses of persons who
died within the FOM, employees of the credit union, and retirees from the above employers
and members of their families. According to its final Call Report, September 30, 2012,
G.I.C. reported total assets of $15.5 million and membership of approximately 3,500.

Our review of NCUA examinations during the scope period, January 2007 to December
2012, identified that the Credit Union generally received positive results, usually a CAMEL
Composite rating of 2. Based on our review of examiner working papers provided by NCUA
Region III and additional files provided by the NCUA’s Asset Management and Assistance
Center (AMAC), an external CPA firm issued reports of agreed-upon-procedures to the
credit union for the periods ended June 30, 2006 and December 2007, and opinion audit
reports for the fiscal year ended December 2008. Our review of examination working papers
determined examiners reviewed these reports.

During the examination effective March 31, 2010, examiner working papers noted that G.I.C.
management informed the examiner-in-charge (EIC) about the opinion audit for the fiscal
year ended December 31, 2009. Specifically, G.I.C. management had advised the EIC that
the opinion audit was almost complete and that no issues were expected. The EIC
documented the lack of an audit report in the Transaction Risk section of the Examination
Overview for this March 31, 2010 examination, but did not exercise an administrative
remedy. During the next examination effective December 31, 2010, the EIC noted in the
Examination Overview section of the working papers that the fiscal year 2010 opinion audit
was underway and that the fiscal year 2009 opinion audit had not revealed any significant
issues. The EIC documented in the examination working papers that he reviewed the 2009
audit report. We learned during interviews with the EIC that although he reviewed what he
thought was the final 2009 audit; this report was later determined to have been a draft copy. 2
The EIC also explained that because he reviewed what he believed to be the final 2009 audit,

2
  We learned during our review that the 2009 audit report the examiner initially reviewed may have been
fictitious because examiners later determined the report had been copied numerous times to effectively
“washout” the Draft markings on the report.


                                                                                                          3
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



he deemed this sufficient because the Credit Union had a history of positive examination and
audit results.

During the next examination effective June 30, 2012, the EIC determined that auditors had
not issued their fiscal year 2011 audit opinion. The EIC issued a Document of Resolution
(DOR) requiring G.I.C.’s supervisory committee, Board, and management to ensure
completion of the audit within 45 days. The EIC provided voicemails to confirm he spoke
with the auditor regarding G.I.C.’s 2011 financial statement audit. On September 18, 2012,
the auditor informed the EIC they were completing the 2011 audit, but did not mention that
they had not completed or issued the 2009 and 2010 financial statement audit reports.
During a conversation between the EIC and auditor on October 23, 2012, the auditor told the
EIC that the 2011 audit was still in process and for the first time mentioned that the 2010
audit still had an open item, but again, the auditor did not mention the status of the 2009
audit.

On November 29, 2012, the Manager of G.I.C. called the EIC to inform him that the Credit
Union had placed the Assistant Manager on administrative leave on November 27, 2012.
The Credit Union’s external auditor contacted the EIC later the same day and informed him
that they had discovered a $5 million discrepancy between the CDs held as investments per
the December 31, 2011 statement provided by the Assistant Manager, and the confirmation
provided directly from the institution. By December 4, 2012, NCUA examiners had
identified an overstatement in cash and investments of at least $8.1 million, primarily in the
form of funds reported as invested in brokered CDs that did not exist. Region III officials
transferred the Credit Union to Special Actions on December 4, 2012. The Region III
Regional Director (RD) informed the NCUA Board Chairman of this issue on December 5,
2012 and executed a Notice of Involuntary Liquidation and Revocation of Charter effective
December 13, 2012.

During the period when Region III officials transferred the Credit Union to Special Actions,
PCOs discovered a number of issues raising the suspicion of fraud. G.I.C. management
contracted a forensic examiner to review the records of the Credit Union and AMAC
continued this contract upon liquidation. The forensic examination is ongoing. NCUA’s
Board liquidated G.I.C. on December 13, 2012. NCUA estimates the loss to the NCUSIF at
$7 million. However, the actual cost of the failure will not be known until all assets are sold.




                                                                                                 4
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



NCUA Examination Process

Total Analysis Process

NCUA uses a total analysis process that includes collecting, reviewing, and interpreting data;
reaching conclusions; making recommendations; and developing action plans. The
objectives of the total analysis process include evaluating CAMEL 3 components, and
reviewing qualitative and quantitative measures.
NCUA uses the CAMEL Rating System for evaluating the soundness of credit unions on a
uniform basis, the degree of risk to the NCUSIF, and for identifying those institutions
requiring special supervisory attention or concern. The CAMEL rating includes
consideration of key ratios, supporting ratios, and trends. Generally, the examiner uses the
key ratios to evaluate and appraise the credit union’s overall financial condition. At the
conclusion of an examination, examiners assign a CAMEL rating.

Examiner judgment affects the overall analytical process. An examiner’s review of data
includes structural analysis, 4 trend analysis, 5 reasonableness analysis, 6 variable data
analysis, 7 and qualitative data analysis. 8 Numerous ratios measuring a variety of credit union
functions provide the basis for analysis. Examiners must understand these ratios both
individually and as a group because some individual ratios may not provide an accurate
picture without a review of the related trends.

Financial indicators such as adverse trends, unusual growth patterns, or concentration
activities can serve as triggers of changing risk and possible causes for future problems. The
NCUA also instructs examiners to look behind the numbers to determine the significance of
the supporting ratios and trends. Furthermore, the NCUA requires examiners to determine
whether material negative trends exist, ascertain the action needed to reverse unfavorable
trends, and formulate, with credit union management, recommendations and plans to ensure
implementation of these actions.



3
  The acronym CAMEL derives its name from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset-Liability Management.
4
  Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
5
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
6
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance ratios.
7
  Examiners can often analyze an examination area in many different ways. NCUA’s total analysis process
enables examiners to look beyond the “static” balance sheet figures to assess the financial condition, quality of
service, and risk potential.
8
  Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the Credit Union’s current condition, and its future.
Qualitative data analysis may include assessing lending policies and practices, internal controls, attitude and
ability of the officials, risk measurement tools, risk management, and economic conditions.


                                                                                                                5
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



Risk-Focused Examination Program
In 2002, the NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-focused
supervision procedures often include reviewing off-site monitoring tools and risk evaluation
reports as well as on-site work. The RFE process includes reviewing seven categories of
risk: Credit, Interest Rate, Liquidity, Transaction, Compliance, Strategic, and Reputation.
Examination planning tasks may include: (a) reviewing the prior examination report to
identify the credit union’s highest risk areas and areas that require examiner follow-up; and
(b) analyzing Call Reports as well as the risks detected in the credit union’s operations and in
management’s demonstrated ability to manage those risks. A credit union’s risk profile may
change between examinations. Therefore, the supervision process encourages the examiner
to identify those changes in profile through:

    •    Review of quarterly Financial Performance, Risk, and Call Reports;

    •    Communication with credit union staff; and

    •    Knowledge of current events affecting the credit union.

On November 20, 2008, the NCUA Board approved changes to the risk-based examination
scheduling policy, creating the Annual Examination Scheduling Program (AEP). 9 NCUA
indicated these changes were necessary due to adverse economic conditions and distress in
the nation’s entire financial structure, which placed credit unions at greater risk of loss. The
NCUA stated that the Annual Program would provide more timely relevant qualitative and
quantitative data to recognize any sudden turn in a credit union’s performance.

OBJECTIVES, SCOPE, AND METHODOLOGY

We performed this material loss review to satisfy the requirements of Section 216(j) of the
FCU Act, 12 U.S.C. §1790d(j), which requires the OIG to conduct a material loss review
when the NCUSIF has incurred a material loss, or when unusual circumstances exist that
warrant an in-depth review of the loss. 10

The objectives of the MLR were to:

    1. Determine the cause(s) of the Credit Union’s failure and the resulting loss to the
       NCUSIF;


9
  The AEP requires either an examination or a material on-site supervision contact within a 10 to 14 month
timeframe based on risk-based scheduling availability.
10
   The FCU Act deems a loss “material” if the loss exceeds the sum of $25 million or an amount equal to 10
percent of the total assets of the credit union at the time in which the NCUA Board initiated assistance under
Section 208 or was appointed liquidating agent.


                                                                                                                 6
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



    2. Assess the NCUA’s supervision of the institution, including implementation of the
       Prompt Corrective Action (PCA) requirements of Section 208 of the FCU Act; and

    3. Make appropriate observations and/or recommendations to prevent future losses.

To accomplish our review, we performed fieldwork at the NCUA’s Region III office in
Atlanta, Georgia. The scope of this review covered the period from January 2007 through
liquidation in December 2012.

To determine the cause(s) of G.I.C.’s failure and assess the adequacy of NCUA’s
supervision, we:

    •   Completed a risk assessment, which included a review of the Examination Overviews
        as well as other risk considerations, including consideration of minimum scope
        requirements for examiners;

    •   Prepared a chronology and summary table of regulatory examinations, which
        included the examination dates, examiner, CAMEL rating, supervisory actions, and
        significant examiner comments;

    •   Reviewed exam files, including exam reports, risk assessments, examination findings,
        DORs, confidential sections, corrective actions, examination spreadsheet files,
        correspondence, analysis, and other documentation;

    •   Reviewed G.I.C.’s Board of Directors minutes and Board packets, as well as
        supervisory committee minutes provided;

    •   Reviewed the external reports on audits, agreed-upon procedures and member
        account verification, including results, findings, and responses, as provided;

    •   Conducted interviews with Region III and Asset Management and Assistance Center
        (AMAC) management and staff involved with the examination, supervision, and/or
        liquidation of G.I.C.;

    •   Downloaded Call Reports and Financial Performance Reports for the scope period
        and performed analysis of a number of financial indicators, including net interest
        margin, nonmember shares, fee income, interest income, compensation, and other
        elements of the balance sheet and income statement;

    •   Considered allegations of fraud as documented in examiner work papers, including
        means of misappropriation and potential warning signs;



                                                                                             7
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



    •   Developed a timeline and summary of enforcement actions taken by the NCUA from
        2007 through liquidation;

    •   Assessed NCUA supervision and evaluated the timeliness of supervisory actions; and

    •   Assessed the effectiveness of G.I.C. management, and oversight by the supervisory
        committee and Board of Directors.

We relied upon materials provided by NCUA Region III and AMAC officials, including
information and other data collected during interviews.

We used computer-processed data from NCUA’s AIRES and NCUA online systems. We did
not test controls over these systems; however, we relied on our analysis of information from
management reports, correspondence files, and interviews to corroborate data obtained from
these systems to support our audit conclusions.

We conducted this review from June 2013 through November 2013, in accordance with
Generally Accepted Government Auditing Standards (GAGAS) and included such tests of
internal controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                                                                            8
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



RESULTS IN DETAIL

We determined that G.I.C. failed due to misrepresentation by management of $8.1 million in
Credit Union assets, primarily through the misstatement of certificates of deposit held as
investments and cash held on deposit. Once NCUA officials corrected the records of the
Credit Union for the misstatement, they determined the Credit Union to be insolvent and
liquidated it within two weeks of discovery. At the recommendation of PCOs, the G.I.C.
Board of Directors hired a third party to perform a forensic examination. AMAC, in its
capacity as liquidating agent as assigned by NCUA Region III per the Notice of Involuntary
Liquidation and Revocation of Charter, has instructed the forensic examiner to continue the
investigation, which is ongoing.

Other factors contributing to the failure included issues with management integrity, lack of a
functioning supervisory committee, and a failure of the Board to perform its duties related to
receiving audit reports.

A. Why G.I.C. Federal Credit Union Failed

                                 We determined that management’s overstatement of assets,
 Management’s                    primarily investments and cash, caused G.I.C. to fail.
 Actions Caused                  Highlighted below are the specific factors, which we believe
 G.I.C. to Fail                  allowed this misstatement to occur undetected.

Management Integrity and Performance Issues

We determined G.I.C. management did not conduct the business of the Credit Union in the
best interest of its members. Specifically, examiners discovered assets overstated by
approximately $8.1 million, including $6 million of investments in CDs, $1.5 million in cash
and cash equivalents, and $600 thousand in assets reported as invested in the National
Investment Fund. 11 Region III PCOs also noted issues with credit cards, check registers,
member credit card and share draft accounts, journal entries, and other suspicious
transactions.

Prior to turning the case over to Special Actions, NCUA Region III examiners discovered
numerous physical items with the potential for use in forging bank statements and records.
Examples included various types of paper, sticky notes with single digits in various fonts, 12
and high-end printers, which appeared more sophisticated than what G.I.C. management
needed to conduct routine business.

11
   The National Investment Fund, terminated on August 23, 2013, was a fund offered exclusively to Federal and
State charted credit unions as a Common Trust Investment organized under Regulation 9 of the Comptroller of
the Currency.
12
   We learned from interviewees that they believed credit union management affixed the notes to monthly
statements and then copied the statements in order to prepare falsified documents.


                                                                                                            9
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



Through our review of examination working papers and later corroborated in interviews, we
determined NCUA regional management and examiners agreed that the falsified statements
prepared by G.I.C. management looked convincing. 13 Several interviewees informed us that
based on information obtained after discovery of the alleged fraud, they believe it was likely
the manager knew of the alleged fraud. The fact that G.I.C. was a small credit union with a
single branch, one manager, an assistant manager, and several tellers, supports this assertion.

Also lending credence to the interviewees’ belief, regional staff discovered some of the items
mentioned above (sticky notes, glue sticks, various kinds of paper, etc.) in the manager’s
backpack. In addition, interviewees informed us that in November 2012, prior to examiners
arriving on site for the examination effective September 30, 2012, the manager ordered the
destruction of more than two tons of paper records, computer hard drives, and electronic
media relating to transactions from 2011 through June 2012, while leaving records from
earlier periods untouched.

Weak Supervisory Committee

Examiners routinely documented the supervisory committee as weak and ineffectual in the
examination working papers. This is consistent with what we learned during interviews and
our review of the G.I.C. Board minutes. The supervisory committee failed in its
responsibility to obtain audits within 120 days as required under Part 715 of the NCUA Rules
and Regulations for fiscal years 2009, 2010, and 2011.

In addition, the Credit Union’s last completed audit was for the fiscal year ended December
31, 2008. Our review of this report revealed an issue date of November 20, 2009, 14 which
exceeds the requirement to obtain a finalized audit report within 120 days of the period
covered under audit, as required under NCUA Rules and Regulations Part 715.9.

We also learned during our review that when the external auditors noted discrepancies
between confirmed investment balances and those provided by the Credit Union, the auditors
were simultaneously performing the financial statement audits for fiscal years 2009, 2010,
and 2011. All of these audits were past due per the 120-day audit requirement. Despite this,
we noted no evidence to suggest that the Credit Union applied to the Region III RD for a
waiver of the 120-day requirement.




13
   Region III officials provided us with copies of the falsified statements and those obtained directly from third-
party institutions. Based on our comparative review of both documents, we agree.
14
   AMAC provided the report, seized from the Credit Union’s files, for this review. The RD and the Director,
Division of Special Actions (DSA Director) indicated that the actual issue date for the report was September 10,
2010. Although this raises the possibility that AMAC may have obtained an altered report, we could not
substantiate this.


                                                                                                                10
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



Weak Board of Directors Oversight

G.I.C.’s Board of Directors failed in its duties as required under NCUA Rules and
Regulations. Specifically, we determined that during the scope period of our review, the
Credit Union’s supervisory committee only presented the 2007 and 2009 audit reports, which
were met with minimal discussion. NCUA Rules and Regulations Part 715.10 requires the
supervisory committee to present completed audit reports to the Board of Directors. Our
review of G.I.C.’s Board minutes determined not only were these reports minimally
discussed, but the 2009 audit was incomplete, which we believe not only confirms the lack of
discussion, but also calls into question which report the supervisory committee presented to
the Board during this meeting.

During the examination, effective December 31, 2006, examiners suggested to management
that the Credit Union develop an active supervisory committee, and provided specific
recommendations to the Board on how to improve the function of the committee. We noted
nothing in the Board minutes to indicate that the Board followed these recommendations or
took action to suspend members of the supervisory committee. In subsequent examination
working papers, examiners noted an ineffective supervisory committee.

Our review of G.I.C.’s Board minutes also revealed a lack of detail and failure to include the
approved Treasurer’s report. We found the Board minutes to be sloppy, including a number
of crossed out items and only a vague description of discussion items. We also noted that the
list of investments had no total, and any attempt to reconcile the list of investments to the
records of the Credit Union, as represented by the Board packets, was impossible, as the
Board packets did not contain a balance sheet.

B. NCUA’s Supervision of G.I.C. Federal Credit Union

                                  We determined examiners could have identified
 NCUA Examiners Could             irregularities earlier had they more aggressively enforced
 Have Identified                  the requirement that the supervisory committee complete an
 Irregularities Sooner            audit of the Credit Union within 120 days of fiscal year end.
                                  In addition, although examiners followed current NCUA
policies and procedures to gain assurance over cash and investment balances, we determined
current examination requirements do not require confirmation of significant balances directly
with institutions. As a result, management was able to manipulate and falsify monthly bank
statements that went undetected by examiners. Finally, we determined that examiners failed
to require the G.I.C. Board and management to build a functioning supervisory committee
and did not adequately address the Board’s failure in their responsibilities over the records of
the Credit Union. As a result, the NCUSIF incurred a loss of $7 million. However, NCUA
will not know the true cost of the failure until all assets are sold.




                                                                                             11
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



Supervisory Background

G.I.C. received a CAMEL Composite rating of 2 at the conclusion of the examination
effective June 30, 2012, an indication of fundamentally sound performance and consistent
with previous examinations for the scope period of our review. Examiners completed the
June 30, 2012 examination on October 30, 2012. On November 29, 2012, the EIC received a
telephone call from the Credit Union’s manager stating that the Board had removed the
assistant manager based on issues brought to their attention by the external auditors. On this
same date, examiners began an examination effective September 30, 2012, and completed it
on December 8, 2012. The results of this examination downgraded the Credit Union’s
CAMEL Composite and all component ratings to 5. Region III’s RD executed a Notice of
Involuntary Liquidation and Revocation of Charter effective December 13, 2012. On
December 27, 2012, examiners started the final contact of G.I.C. with an effective date of
November 30, 2012 and with the intent of liquidating the Credit Union. Table 1 (below)
provides Composite and specific CAMEL ratings for the applicable examinations during the
scope period of our review.

Table 1


                                  NCUA Examination Results for G.I.C.**

 Examination            Exam        CAMEL          Capital/      Asset
                                                                            Management        Earnings     Liquidity
 Effective Date         Type 15    Composite      Net Worth     Quality
 November 2012             22           5              5            5             5               5              5
 September 2012            22           5              5            5             5               5              5
 June 2012                 10           2              1            2             2               1              3
 December 2010             10           2              1            2             2               1              3
 March 2010                10           2              1            2             2               1              2
 June 2009                 22           2              1            1             2               1              2
 March 2008                10           1              1            1             1               1              1
 December 2006             10           2              1            3             2               1              2
**Examination information provided by NCUA’s Region III.

Failure to Enforce the Requirement for a Supervisory Committee Audit

Based on our review of examination working papers, we determined that during the
examination effective March 31, 2010, G.I.C. management informed the EIC that the fiscal
year 2009 financial statement audit was almost complete and that they expected no issues.

15
  Work Classification Code (WCC) Examination Type 10 is a regular examination or insurance review of a
federally chartered credit union and Type 22 is an on-site supervision contact of a federally chartered credit
union.


                                                                                                                 12
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



The EIC documented the lack of an audit in the working papers, but did not raise this issue as
a DOR item.

During subsequent contacts, G.I.C.’s external auditors informed the EIC that relevant audits
were underway; leading the EIC to believe that the external auditors had completed the prior
audits, when in fact they had not. This continual cycle of starting audits, but not completing
them, ultimately led to three fiscal years of overdue audit opinions, which were not in
compliance with the 120-day deadline in NCUA Rules and Regulations Part 715.9 16 Table 2
(below) provides a timeline of events for the external audit reports and NCUA examinations.

Table 2




Examiners did not issue a DOR related to the 120-day audit requirement until the
examination effective June 30, 2012. During this contact, the EIC issued a DOR requiring
the Board, supervisory committee, and manager to complete the FY 2011 audit within the
next 45 days. We determined this DOR did not mention the 2009 nor the 2010 audit, which
were later found to be incomplete and not issued.

We believe had the EIC issued a DOR for the overdue FY 2009 audit report during the
examination effective March 31, 2010, then at a minimum, the risk-focused examination
program requirements related to DOR follow-up would have required the EIC to ensure that
external auditors had completed the prior audits. We also believe that this would have
increased the probability that the overstatement in assets would have been discovered,
assuming the external auditors performed confirmation procedures, which is the common
(but not mandatory) practice.

To gain a more general understanding of risk-focused examination procedures related to
audit reports, we asked interviewees whether current procedures require examiners to obtain

16
     Due to insufficient evidence, we could not determine why external auditors did not complete the audits.


                                                                                                               13
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



external audit reports directly from independent accountants. Interviewees told us that
current procedures do not have this requirement, and several interviewees cited time
constraints and the lack of an effective method to track the status of audits in subsequent
exams as the reason why they do not obtain them directly.

Failure to Confirm Institutional Balances

We learned during interviews and through our review of examiner working papers that
examiners relied on investment statements provided to them by G.I.C. management as
evidence of cash and investment balances. This is consistent with NCUA policy and we
found nothing to indicate that examiners did not follow these policies.

However, we also learned during examiner interviews conducted during the course of this
review that the examiners in this case assumed that because the external auditors had issued
an unqualified opinion, that the auditors had properly executed confirmation over cash and
investments, without exception. Although confirmation over cash and investment accounts is
common practice as part of an opinion audit, there are no standards requiring auditors to
perform these steps, i.e., they are not mandatory. Therefore, although an unqualified opinion
provides some level of assurance over the records of the credit union, examiners should not
assume that the auditor directly confirmed cash and investment balances with third party
institutions, and should inquire as to what verification method the auditor used.

As previously noted, audits for calendar years 2009, 2010 and 2011 were open at the same
time. It is important to note here that the external auditor could have been more proactive in
informing the examiner of the status of prior audits, and why completion of the audits had
been delayed.

Interviewees also informed us that if the external auditor has not issued their final audit
opinion report prior to the conclusion of the examination, they often obtain the final report
during the next examination. Interviewees indicated they will not review the auditors’ in-
process working papers or confirm balances directly. Although not a required examination
procedure, we believe had examiners confirmed cash and investment balances directly with
the safe keeper, examiners would have likely discovered the fictitious investments sooner.

Failure to Address Risk with an Ineffective Supervisory Committee

During our review of examination working papers, we determined examiners considered the
supervisory committee to be ineffective. The EIC provided a number of recommendations in
the Examination Overview to strengthen the supervisory committee in the examination
effective December 31, 2006. Recommendations included holding more meetings, keeping
minutes, using NCUA’s Supervisory Committee Guide for Federal Credit Unions, and
increasing skill and understanding through training. However, we noted no follow-up in
subsequent contacts.


                                                                                              14
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



Supervisory committees at small credit unions present a particular challenge because the pool
of volunteers is limited. However, the checks and balances envisioned in the structure of a
credit union as put forth by the NCUA Rules and Regulations depends on the proper
functioning of the Board of Directors, supervisory committee, and management. The
examiners we interviewed consider independent accountants to act as a mitigating control to
ineffective supervisory committees. However, we believe that if the supervisory committee
is not functioning, the independent audit function operates without oversight. Such a
situation is contrary to the roles specified in the NCUA National Supervision Policy Manual
and the NCUA Rules and Regulations.

Starting with the examination effective December 31, 2006, we believe that examiners
should have initially included recommendations as examiner findings, and escalated the
administrative remedy to a DOR and taken further steps if G.I.C. management had not fully
and timely complied. Without an effective supervisory committee, examiners cannot be
certain that internal controls at a credit union are functioning as intended, placing member
funds and the NCUSIF at risk.

Failure to Address Risk with an Ineffective Board of Directors

We determined examiners failed to hold G.I.C.’s Board of Directors responsible for ensuring
the fidelity of the credit union’s records. Although the supervisory committee is responsible
for ensuring the completion of the financial statement audits, the Board of Directors also
plays a role in this monitoring process by providing a forum for receipt of the supervisory
committee’s report on the financial statement audits. We believe had examiners taken a
more aggressive approach and escalated administrative remedies to address the Board’s
ineffectiveness, it would have been more likely that the supervisory committee would have
functioned better and external auditors and management would have been pressed to
complete the audits timely. This in turn might have increased the likelihood the misstatement
would have been discovered.

In addition to failing to require the Board to fulfill its duties surrounding receipt of the
supervisory committee’s report on the financial statement audit, we could not find adequate
support for examiners’ rating of the minutes as “good” or “detailed” as documented in the
Examination Scope working papers. 17 We believe more detailed minutes and comprehensive
Board packets would have increased the probability that examiners would have either
detected the misstatement or at least caused the supervisory committee to complete the
audits.




17
  Board minutes were provided to us by AMAC from the Credit Union’s records. Examination working papers
are not required to include the raw minutes. It is therefore possible that our minutes differ from those reviewed
by examiners.


                                                                                                               15
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



OBSERVATIONS AND RECOMMENDATIONS

A. Observations

We interviewed eleven individuals during the course of this MLR. Through this process, we
noted two observations that were not germane to the failure of G.I.C. but were sufficiently
important to warrant reporting to NCUA management.

Threshold for Mandatory Opinion Audit

Part 715.5 of NCUA Rules and Regulations requires federally chartered credit unions with
$500 million or more in total assets to have a financial statement audit performed by a
licensed independent auditor. Interviewees from Region III informed us that they believe
this threshold is too high.
Smaller credit unions, which may, among other options, fulfill their requirements by
performing a supervisory committee audit as described under NCUA Rules and Regulations
Part 715.7, often have less sophisticated supervisory committees, Boards of Directors, and/or
management. However, regulations allow the supervisory committee to perform the audit
per the guidelines in NCUA’s Supervisory Committee Guide for Federal Credit Unions.

We suggest NCUA management review recent OIG MLRs, interview regional directors, and
consult with the supervisory committees, Boards of Directors, and management teams of a
select group of small credit unions to investigate whether the $500 million threshold is
appropriate.

Review of Audit Working Papers

NCUA Instruction 5000.20, rev. 4, effective June 25, 2012, requires examiners to review
external audit working papers unless the examiner determines sufficient justification exists to
opt out of this procedure. 18 We learned from the interviews held with examiners working on
G.I.C. that they believe they would benefit from additional training and guidance regarding
which working papers to review and how to review them.

Following discovery of the alleged fraud, examiners reviewed audit working papers at the
offices of the external CPA firm. Results of interviews indicated that these examiners
considered the audit working papers to be of poor quality and the work to be insufficient.
Interviewees told us that they believe the alleged fraud had continued for many years,
including years under audit; however, the CPA firm retained files for only three years. 19 CPA

18
   This rule came into effect after examiners completed all but the June 30, 2012 (Effective) examination for
G.I.C.. Because the external auditor had not completed the 2009-2011 audits, we expect that auditor work
papers would be incomplete.
19
   AICPA Professional Standards, AU-C 230, requires auditors to retain audit documentation for a minimum of
five years.


                                                                                                           16
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



working papers were not available for us to review so we could not review them. We
therefore cannot make statements regarding the sufficiency of the CPA’s work.

Metric Analysis

We analyzed trends in a number of metrics gleaned from Call Reports and FPR data. Our
purpose was to consider the Credit Union’s reported results in light of the results of peers to
determine if examiners missed red flags. Results of these procedures revealed several
unusual trends, including return on average assets above that of peers even during the peak of
the economic downturn, increasing loan balances that seemed to perfectly offset decreasing
loan volume, and cash on hand that seemed far too low to support operations. We also
reviewed other items such as partially documented CD investment portfolios.

While we noticed some unusual results in all of this evidence, we noted no anomalies that
were so strong as to reveal the presence of fictitious CDs held for investment.
Based on this review, we consider that without confirming the existence of the certificates
directly with a third party, it would have been difficult for examiners to detect the
misstatements in assets. As previously mentioned, examiners are not required to perform
confirmations directly with third party institutions and therefore met minimum examination
requirements over this area.

B. Recommendations

Based on our review, we are making the following four recommendations.

We recommend NCUA management:

    1. Reinforce documentation, communication, and follow up procedures required for
       incomplete or otherwise unacceptable external auditor reports to ensure appropriate
       visibility for follow up and escalation of administrative remedies if the issues are not
       resolved.

Management Response

Management stated they have previously taken corrective action to address this
recommendation through implementation of Chapter 5 of the National Supervision Policy
Manual, which addresses audits, recordkeeping, and fraud. Management indicated the
chapter defines an unacceptable audit and provides specific steps for examiners to take to
address incomplete or unacceptable audits, including when to escalate the weaknesses to
administrative action.




                                                                                             17
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



OIG Response

We agree with management that Chapter 5 of the National Supervision Policy Manual
addresses actions examiners are to take when confronted with incomplete or unacceptable
audits, including when to escalate the weaknesses to administrative action. However, given
the issues identified in this Material Loss Review, we recommend NCUA management
reinforce the policies and procedures outlined in Chapter 5 of the National Supervision
Policy Manual to ensure examiners document, communicate, and follow-up on incomplete or
otherwise unacceptable external auditor reports.

    2. Revise policies and procedures to require that examiners gain an understanding
       through direct communication with external auditors of procedures performed to
       verify account balances, specifically the cash, investments, brokered CD’s, and
       member accounts. Examiners should document the results within the relevant
       examination working paper sections.

Management Response

Management agreed and plans to revise NCUA policies and procedures to require direct
communication with the external auditor in cases where the audit is past due or unacceptable,
internal controls are weak or insufficient, or the audit firm is unknown or has limited
experience working with credit unions. In all other cases, management indicated they expect
examiners to contact the auditor directly unless mitigating circumstances exist that makes it
reasonable for them to opt out of this procedure.

OIG Response

We agree with management’s planned actions.

    3. Consider requiring examiners to obtain audit reports directly from independent
       auditors rather than receiving them from credit union management to avoid potential
       manipulation. NCUA could accomplish this through an e-file system for independent
       auditors to upload completed audits. Examples of similar systems include the Federal
       Audit Clearing House maintained by the U.S. Census Bureau and the Integrated
       Station Information System (ISIS) used by the Corporation for Public Broadcasting.

Management Response

Management agreed but indicated they first plan to have the Office of Examination and
Insurance work with the Office of General Counsel to evaluate its options for obtaining audit
reports directly from independent auditors. At this time, management does not believe the
auditor has a legal obligation to share their audit report with NCUA as a condition of share
insurance, and therefore cannot compel the auditor to provide NCUA with a copy of the
report directly.
                                                                                           18
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



OIG Response

We agree with management’s planned action to consult with NCUA’s Office of General
Counsel to evaluate its options and determine whether NCUA can legally compel an
independent auditor to provide a copy of its report as a condition of share insurance. Should
the Office of General Counsel render an opinion that NCUA does not have the legal
authority, we suggest management pursue such authority through NCUA Board action or by
seeking changes to the Federal Credit Union Act.

    4. Revise examination guidelines to include a step requiring examiners to obtain
       independent verification of significant balances (e.g., greater than 10 percent of total
       assets) directly from third parties. To ensure minimal impact to examiner workload,
       we suggest the NCUA either develop an in-house system to accomplish this, use a
       third-party provider such as Confirmation.com, or create procedures to obtain
       statements directly from third parties. NCUA should construct the related policies
       and procedures so that the verification is available as of the contact start date.

Management Response

Management agreed but indicated they first plan to have the Office of Examination and
Insurance work with the Office of General Counsel to evaluate whether NCUA has the legal
authority to obtain independent verification of accounts. Management stated that should the
Office of General Counsel determination NCUA has the legal authority, they plan to have the
Office of Examination and Insurance develop applicable policies and guidelines that will take
into account risk, mitigating factors, and concerns.

OIG Response

We agree with management’s planned action to consult with the Office of General Counsel
to determine whether NCUA has the legal authority to obtain independent verification of
accounts.




                                                                                              19
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13



APPENDIX A: NCUA Management Response




                                                     20
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13




                                                     21
Material Loss Review – G.I.C. Federal Credit Union
OIG-13-13




                                                     22
